              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report


Concerns Regarding Lead
Contamination and Radiological
Controls at the Nevada Test Site




INS-O-06-02                              May 2006
CONCERNS REGARDING LEAD CONTAMINATION AND
RADIOLOGICAL CONTROLS AT THE NEVADA TEST SITE



TABLE OF
CONTENTS


              OVERVIEW

              Introduction and Objectives …………………………………. 1

              Observations and Conclusions …………………………….. 2


              DETAILS OF FINDINGS

              Lead Dust ……………………………………………………… 3

              Radiological Control ………………………………………….. 4

              Sealed Radioactive Source Program ..…………………….. 6

              Best Practices ………………….…………………………….. 7


              RECOMMENDATIONS ……………………………………… 8


              MANAGEMENT COMMENTS ……………………………… 8


              INSPECTOR COMMENTS …………………………………. 8


              APPENDICES

              A. Scope and Methodology ……………………….………… 9

              B. Management Comments…………………………………..10
Overview

INTRODUCTION     The Department of Energy’s (DOE’s) Nevada Test Site (NTS)
AND OBJECTIVES   mission includes experimental and hazardous work in support of
                 the national Stockpile Stewardship Program; maintaining the
                 capability to resume underground nuclear testing; performing
                 characterization and remediation of legacy nuclear testing sites;
                 and managing nuclear waste operations. NTS is operated for DOE
                 by Bechtel Nevada and is under the cognizance of DOE’s National
                 Nuclear Security Administration (NNSA). In March 28, 2006, the
                 Department announced that National Security Technologies, LLC
                 had been awarded a contract to manage and operate NTS,
                 replacing Bechtel Nevada as the site contractor. Full performance
                 of the new contract is scheduled to begin in July 2006.

                 In conjunction with the above activities, materials such as lead and
                 sealed radioactive sources are stored at NTS. Lead is a neurotoxic
                 metallic element that can be absorbed by the body, primarily
                 through the lungs and stomach, and can potentially cause lead
                 poisoning. Left untreated, lead poisoning can damage internal
                 organs, including the kidneys, nervous system, and brain. Sealed
                 radioactive sources consist of radioactive material contained within
                 a sealed capsule. Sealed radioactive sources are most commonly
                 used throughout DOE for testing and calibration of radiation
                 detection instrumentation. In the current environment, they have
                 the potential to be used to make “dirty bombs” (conventional bombs
                 mixed with radioactive material).

                 The Office of Inspector General received an allegation that lead
                 bricks at the Occupational Medicine facility (Building 650) at NTS
                 created a lead dust hazard and that there were numerous specified
                 radiological control violations throughout NTS. Therefore, the
                 objectives of our inspection were to determine whether:

                 •   There was a lead dust hazard at Building 650 at NTS; and

                 •   Specified radiological control violations existed at NTS.

                 Additionally, as a follow-up to a March 2002 Office of Inspector
                 General report entitled “Inspection of the Accountability and
                 Control of Sealed Radioactive Sources at Selected Department of
                 Energy Sites,” DOE/IG-0544, which included findings at NTS, we
                 conducted a limited review of the management of the NTS sealed
                 radioactive source program.




Page 1                                         Concerns Regarding Lead
                                               Contamination and Radiological
                                               Controls at the Nevada Test Site
OBSERVATIONS AND   We concluded that the allegations were partially substantiated.
CONCLUSIONS        Specifically, we found that:

                   •   Surface lead dust contamination in the basement of Building
                       650, as well as in a storage room known as the Detector Room
                       and two offices above the basement, exceeded Bechtel
                       Nevada’s established threshold levels. Further, Bechtel
                       Nevada had not taken action to make surfaces in these
                       contaminated areas “as free as practicable” of lead dust, as
                       required by the Occupational Safety and Health Administration
                       (OSHA); and

                   •   A number of specified radiological control violations did exist;
                       however, Bechtel Nevada had self-reported them and was in
                       the process of verifying the completion of the corrective
                       actions identified in its associated corrective action
                       implementation plan. We did not substantiate the remaining
                       allegations concerning radiological control violations.

                   Regarding our follow-up review of the NTS sealed radioactive
                   source program, we concluded that the program had improved
                   since our last inspection, but that there were areas that should be
                   strengthened. We found that Bechtel Nevada had not consistently
                   implemented certain site radiological control program
                   requirements for managing its sources. For example, we identified
                   inaccurate information posted at one source location, a label
                   affixed to a source that did not contain current information, and
                   missing inventory and leak test results and inaccurate status
                   information (e.g., out of use, awaiting disposal) for another source
                   that was entered in the Source Locator Database.

                   We also found that radiological surveys indicating rooms’
                   radiation zones were inconsistently posted at the storage locations
                   of the sealed radioactive sources. Bechtel Nevada had identified
                   the survey posting as a best practice and has a policy to implement
                   radiological control best practices. Further, we noted that Bechtel
                   Nevada had a practice of posting sealed radioactive source
                   inventory and leak test results at the location of the sources;
                   however, this information was not consistently updated.




Page 2                                              Observations and Conclusions
Details of Findings

LEAD DUST             We found that surface lead dust contamination in the basement of
                      Building 650, as well as the Detector Room and two offices above
                      the basement, exceeded Bechtel Nevada’s established threshold
                      levels. Further, Bechtel Nevada had not taken action to make
                      surfaces in these contaminated areas “as free as practicable” of
                      lead dust, as required by OSHA.

                      Building 650 is an active office building that gets a large number
                      of visitors because it is the NTS location for picking up and
                      dropping off personal radiation dosimeters. The basement and the
                      Detector Room, which is on the main floor in Building 650, are
                      used to store, among other things, radioactive liquids; solid
                      radioactive materials, including sealed radioactive sources;
                      laboratory control samples once used for research; and more than
                      nine tons of lead bricks that were used several years ago for
                      radiation shielding. We observed that the lead bricks were peeling
                      and covered with lead dust.

                      OSHA regulations establish thresholds for airborne concentrations
                      of lead dust and require employers to establish a lead dust cleanup
                      program that is sufficient to maintain all surfaces “as free as
                      practicable” of accumulations of lead dust. In response, Bechtel
                      Nevada developed lead dust surface standards, including a specific
                      contamination threshold for surface swipe tests.

                      During 2003, Bechtel Nevada’s Industrial Hygiene Department
                      (IH) conducted a site-wide toxic metals characterization survey
                      using two statistically-based sampling approaches. The 2003
                      survey listed the results of all of the samples, including those for
                      lead dust, as being below Bechtel Nevada’s threshold limits. We
                      determined that although Building 650 was included in the survey,
                      the basement, Detector Room, and the two offices above the
                      basement were not sampled at that time. We were advised that the
                      decision not to sample these areas was not intentional, but was
                      based upon the statistical sampling methodology.

                      During November 2004, a Bechtel Nevada employee who had to
                      enter the basement to perform newly assigned duties notified IH of
                      the lead bricks in Building 650, which had been stored there since
                      at least the early 1990s. In response, IH took air and surface
                      samples in the areas where the lead bricks were located, as well as
                      in the surrounding areas. We were told by a Bechtel Nevada IH
                      official that if it were not for the 2003 survey data, he would have
                      extended his sampling to all areas of Building 650. IH
                      subsequently reported that all air sample concentrations of lead



Page 3                                                               Details of Findings
               dust were far less than OSHA’s airborne threshold requiring
               action, but that many surface test results from the basement, the
               Detector Room, and the two offices above the basement exceeded
               Bechtel Nevada’s surface lead dust threshold.

               Subsequently, IH required the doors to the basement, the Detector
               Room, and the two offices to remain locked and access to the areas
               to be limited until the lead bricks could be encapsulated to prevent
               further contamination. Bechtel Nevada locked the doors and
               placed all the keys under the control of one individual.

               After our on-site review, we were told that the lead-dust
               contaminated carpet in the two offices was removed, but that
               Bechtel Nevada still needed to clean up the remaining lead dust
               contamination in the two rooms. We were advised that the two
               rooms remained unoccupied, locked, posted with warning signs,
               and key-restricted. As of December 2005, Bechtel Nevada had a
               remediation plan, but not a specific timeframe, for encapsulating or
               removing the lead bricks and cleaning up the lead dust in all four
               areas, but was not authorized funding to perform this work.

               Although Bechtel Nevada took actions to limit access to and
               reduce usage of the basement, the two offices, and the Detector
               Room, these areas continue to be a potential health hazard. For
               example, an official accountable for a sealed radioactive source
               stored in the basement must periodically enter the basement in
               order to inventory the source in accordance with Federal
               regulations. As an interim measure, Bechtel Nevada developed
               and implemented a control plan for entry into these spaces with
               industrial hygiene support to facilitate the annual inventory of the
               source. We believe Bechtel Nevada and the successor contractor
               should continue the interim measures in Building 650 and continue
               to work with the Site Office to develop and fund a long term
               solution to remediate lead dust contamination that exists from
               legacy hazards such as un-encapsulated lead bricks at NTS.

RADIOLOGICAL   We found that a number of the specified radiological control
CONTROL        violations did exist; however, Bechtel Nevada had self-reported
               them and was in the process of verifying the completion of the
               corrective actions identified in its associated corrective action
               implementation plan. We did not substantiate the remaining
               alleged radiological control violations.

               It was alleged that Bechtel Nevada violated nuclear safety
               requirements regarding nuclear facility hazard categorization,



Page 4                                                        Details of Findings
         storage of nuclear materials above facility hazard categorization
         limits, and timely disposition of nuclear materials. Allegations
         also concerned the lack of “real time” (continuous) tracking, the
         ineffective coordination and management, and the unauthorized
         manufacturing of sealed radioactive sources; the use of “expired”
         sealed radioactive sources, which refers to the certification of the
         source specifications provided by the manufacturer; the lack of
         relevant training of radiological facility managers; and safety
         concerns involving legacy radioactive contamination in buildings.

         We determined that the specific issues identified to us concerning
         the violation of nuclear safety requirements regarding nuclear
         facility hazard categorization, the storage of nuclear materials
         above facility hazard categorization limits, the ineffective
         coordination and management of sealed radioactive sources, and
         the lack of relevant training of radiological facility managers were
         already addressed in a July 2004 Bechtel Nevada self-review
         entitled “Radiological Material Control and Accountability Extent
         of Condition Review.” We further determined that Bechtel
         Nevada was in the process of verifying the completion of all
         corrective actions identified in its associated corrective action
         implementation plan and that NNSA is monitoring the corrective
         actions.

         We did not substantiate the alleged violations concerning untimely
         disposition of nuclear materials, the use of expired sealed radioactive
         sources, the lack of real time tracking of sealed radioactive sources,
         the lack of authority for manufacturing sealed radioactive sources,
         and safety concerns involving legacy radioactive contamination in
         buildings. Regarding untimely disposition, Bechtel Nevada said that
         it has several radioactive materials in storage awaiting
         characterization and that the nuclear waste disposition is an ongoing,
         time-consuming process with limited funding. An NNSA
         radiological control program official said that he has been
         monitoring the contractor’s disposition of radioactive nuclear
         materials and believed that Bechtel Nevada was handling the issue in
         a responsible manner. Based upon our review of pertinent
         documents and interviews, we did not identify violations regarding
         untimely disposition of nuclear materials.

         Regarding the use of expired sealed radioactive sources, Bechtel
         Nevada said that it contacted the source manufacturers and
         obtained extensions of the sources’ certifications. According to
         Bechtel Nevada management, the certification extensions were
         granted by the manufacturers because Bechtel Nevada documented



Page 5                                                  Details of Findings
                         that the sealed radioactive sources still met the manufacturers’
                         specifications. An NNSA radiological control program advisor
                         said that NNSA did not have any policies prohibiting this and that
                         he did not have any concerns about this issue. Based upon our
                         review of pertinent documents and interviews, we determined that
                         there were no violations regarding the process of obtaining
                         extensions of source certifications and no prohibitions regarding
                         the use of these specific sources with expired certification dates.

                         Regarding real time tracking of sealed radioactive sources, Bechtel
                         Nevada said that it did not consider such tracking to be beneficial
                         or cost effective. An NNSA radiological control program advisor
                         said that NNSA does not require real-time tracking of sealed
                         radioactive sources and did not believe that such tracking would be
                         significantly beneficial. Based upon our interviews of several
                         knowledgeable individuals and our review of pertinent documents,
                         we found no violations regarding this matter and considered
                         Bechtel Nevada’s position to be reasonable.

                         Concerning Bechtel Nevada manufacturing sealed radioactive
                         sources without the authority to do so, Bechtel Nevada said that it
                         had not manufactured any sealed sources and did not have plans to
                         do so, but there was no prohibition on doing so. An NNSA
                         radiological control program advisor said that there are no regulatory
                         restrictions regarding DOE and its contractors manufacturing sealed
                         sources for their use. We confirmed that there was no prohibition
                         regarding Bechtel Nevada manufacturing sources.

                         With respect to safety concerns involving legacy radioactive
                         contamination, Bechtel Nevada officials said that such
                         contamination might exist in exhaust fumes and vents in some
                         buildings not in use; however, they were following all Federal
                         guidelines for posting warnings where potential contamination
                         might exist. They said that there is not a legacy concern in
                         buildings where employees are working. An NNSA radiological
                         control program official confirmed that the actions being taken by
                         Bechtel Nevada were in compliance with legacy contamination
                         safety requirements. Based upon several interviews, review of
                         pertinent documents, and the lack of any specific allegations
                         regarding legacy radioactive contamination violations, we did not
                         substantiate the allegation.

SEALED RADIOACTIVE We found that Bechtel Nevada had not consistently implemented
SOURCE PROGRAM     certain site radiological control program requirements for
                   managing its sealed radioactive sources.



Page 6                                                                  Details of Findings
            Pursuant to Title 10 Code of Federal Regulations Part 830,
            “Nuclear Safety Management,” Bechtel Nevada must perform
            radiological work consistent with applicable technical standards,
            administrative controls, and other hazard controls adopted to meet
            regulatory or contract requirements. The regulation states that
            requirements must be implemented in a manner that provides
            reasonable assurance of adequate protection of workers, the public,
            and the environment from adverse consequences. To meet these
            requirements, Bechtel Nevada developed the “NV/YMP
            Radiological Control Manual” and sealed radioactive source
            control program implementation procedures entitled “Source
            Accountability and Control.”

            The procedures require the status of each sealed radioactive source
            to be posted at its location and the name of the individual
            responsible for the sealed radioactive source to be listed on the
            source’s label. In addition, the procedures require Bechtel Nevada
            to verify that its official sealed radioactive source database, known
            as the Source Locator Database, is maintained and updated, as
            necessary, to reflect ongoing changes.

            We identified that there was inaccurate information posted at one
            source location, a label affixed to a source at another location that
            did not contain current information, and missing inventory and
            leak test results and inaccurate status information (e.g., out of use,
            awaiting disposal) for another source that was entered in the
            Source Locator Database. Regarding the inaccurate information
            posted at the location of one source, we determined that the status
            of one source was posted as “out of service” instead of “in
            service.” Regarding a label affixed to a source at another location
            that did not contain current information, we determined that the
            label identified the former official in charge of the source instead
            of the current official. Regarding the Source Locator Database, we
            determined that the database lacked information regarding when
            required inventory and leak tests were conducted for a source and
            indicated that the source was at NTS and “in-use,” even though the
            source actually had been returned to its off-site owner.

BEST        We also found that radiological surveys indicating rooms’
PRACTICES   radiation zones were inconsistently posted at the storage locations
            of the sealed radioactive sources. Bechtel Nevada had identified
            the survey posting as a best practice, and Bechtel Nevada’s
            Radiological Control Manual states that Bechtel Nevada is firmly
            committed to providing a radiological control program that meets
            the “best practices” level of performance.



Page 7                                                      Details of Findings
                  Further, we noted that Bechtel Nevada had a practice of posting
                  sealed radioactive source inventory and leak test results at the
                  location of the sources; however, this information was not
                  consistently updated. Since there was not a written requirement to
                  post inventory and leak test results, Bechtel Nevada said it would
                  review the procedure to determine if the procedure was beneficial
                  and then would take appropriate action to implement a consistent
                  policy.

RECOMMENDATIONS   We recommend that the Manager, Nevada Site Office, ensures that
                  the site operating contractor:

                  1. Takes timely and appropriate action to address the lead
                     contamination in Building 650;

                  2. Develops and implements quality assurance controls to ensure
                     that sealed radioactive source policies and procedures are
                     effectively implemented; and

                  3. Determines if ongoing sealed radioactive source practices, such
                     as the posting of room surveys and posting of inventory and
                     leak test results, are beneficial and, if so, take appropriate
                     action to develop and implement consistent policy.

MANAGEMENT        In comments on a draft of our report, management was in general
COMMENTS          agreement with the recommendations and identified corrective
                  actions that it is taking to address the report recommendations.
                  The comments are included in their entirety at Appendix B.

INSPECTOR         We found management’s comments to be responsive to our report
COMMENTS          recommendations. As appropriate, we made changes to our report
                  to address management’s specific comments.




Page 8                                                    Recommendations
                                         Management and Inspector Comments
Appendix A

SCOPE AND     The field work for this inspection was completed in December
METHODOLOGY   2005. We visited NTS and interviewed Federal and contractor
              officials from Bechtel Nevada; DOE, including NNSA; and
              OSHA. We reviewed relevant site, DOE-wide, and Government-
              wide documents.

              As part of our review, we evaluated implementation of the
              “Government Performance and Results Act of 1993” in the context
              of activities included in our review. We did not identify any
              performance measure issues regarding the allegations received or
              the sealed radioactive source control program at NTS.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 9                                               Scope and Methodology
Appendix B




Page 10      Management Comments
Appendix B         (continued)




Page 11      Management Comments
                                                                    IG Report No. INS-O-06-02

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message clearer to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith at (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
